No._____
IN THE

Supreme Court of the United States
MICHAEL ELDER,

v.

Petitioner,

THE UNITED STATES OF AMERICA,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit
PETITION FOR A WRIT OF CERTIORARI
CHRISTINA JONES
WILLIAM & MARY LAW
SCHOOL APPELLATE AND
SUPREME COURT CLINIC
P.O. Box 8795
Williamsburg, VA 23187
Telephone: 757-221-7362

DWAYNE D. SAM*
WOMBLE BOND
DICKINSON (US) LLP
1200 Nineteenth Street, NW
Suite 500
Washington, DC 20036
Telephone: 202-857-4445
dwayne.sam@wbd-us.com

*Counsel of Record

Counsel for Petitioner

i
QUESTIONS PRESENTED
1. Whether the Second Circuit violated the party
presentation principle articulated in United States
v. Sineneng-Smith, 140 S. Ct. 1575 (2020) when, in
affirming the district court’s decision denying a
motion to suppress, it held that the exclusionary
rule is inapplicable, even though the government
waived the argument and neither party briefed or
raised the issue at any stage.
2. Whether
this
Court’s
exclusionary
rule
jurisprudence requires evidence to be suppressed
when it is found during a suspicionless search of a
federal supervisee’s home, and the officer
conducting the search knew that at least
reasonable suspicion was required but deliberately
disregarded that requirement and conducted the
search anyway.

ii
PARTIES TO THE PROCEEDINGS AND
RELATED PROCEEDINGS
The Petitioner is Michael Elder, an individual.
Petitioner was the defendant and appellant below.
The Respondent is the United States of
America, prosecutor and appellee below.
The related proceedings are:
1) United States v. Elder, No. 17-CR-05-A,
2018 WL 833132 (W.D.N.Y. Feb. 13, 2018) –
Judgment entered February 13, 2018; and
2) Elder v. United States, 805 Fed. App’x 19 (2d
Cir. 2020) – Judgment entered March 9,
2020.
3) Elder v. United States, No. 18-3713 (2d Cir.)
(en banc) – Judgment entered May 7, 2020.

iii
TABLE OF CONTENTS

Page

QUESTIONS PRESENTED ...................................... i
PARTIES TO THE PROCEEDINGS AND
RELATED PROCEEDINGS.................................ii
TABLE OF CONTENTS ......................................... iii
TABLE OF AUTHORITIES ..................................... v
INTRODUCTION...................................................... 1
PETITION FOR WRIT OF CERTIORARI ............... 3
OPINIONS BELOW .................................................. 4
STATEMENT OF JURISDICTION ......................... 4
STATEMENT OF THE CASE .................................. 5
REASONS FOR GRANTING THE WRIT.............. 10
I.

An order granting certiorari, vacating the
judgment below, and remanding for further
consideration is an appropriate remedy in this
case ...................................................................... 10
A. The Second Circuit violated the party
presentation principle by considering the
exclusionary rule’s applicability to this case
sua sponte ........................................................ 11
B. There is a reasonable probability the Second
Circuit would rule differently in light of
Sineneng-Smith .............................................. 15

II. The Second Circuit’s ruling contravenes longstanding Fourth Amendment jurisprudence by
holding that a knowing violation of a
supervisee’s rights does not constitute flagrant
conduct. ............................................................... 17

iv
A. The
Fourth
Amendment
prohibits
suspicionless searches in the absence of
express consent. .............................................. 18
B. Dyckman deliberately chose to flout the
Fourth
Amendment
and
conduct
a
suspicionless search of Elder’s home ............. 21
C. The exclusionary rule was meant to deter
precisely the kind of flagrant official
misconduct at play in this case ...................... 22
III. This case presents issues of extraordinary
importance ......................................................... 25
CONCLUSION ........................................................ 28
APPENDIX A: Order of the United States Court
of Appeals for the Second Circuit Denying
Rehearing En Banc (May 7, 2020) ..................... 1a
APPENDIX B: Summary Order of the United
States Court of Appeals for the Second Circuit
(March 9, 2020) ................................................... 2a
APPENDIX C: Opinion of the United States
District Court for the Western District of New
York (February 13, 2018) ................................. 10a
APPENDIX D: Opinion of the United States
District Court for the Western District of New
York (October 31, 2017) .................................... 22a

v
TABLE OF AUTHORITIES

Page(s)

Cases
Davis v. United States,
564 U.S. 229 (2011) ............................................... 22
Day v. McDonough,
547 U.S. 198 (2006) ............................................... 14
Florida v. J.L.,
529 U.S. 266 (2000) ............................................... 21
Florida v. Jardines,
569 U.S. 1 (2013) ................................................... 24
Giordenello v. United States,
357 U.S. 480 (1958) ............................................... 11
Granfinanciera, S.A. v. Nordberg,
492 U.S. 33 (1989) ................................................. 11
Greenlaw v. United States,
554 U.S. 237 (2008) ......................................... 11, 12
Griffin v. Wisconsin,
483 U.S. 868 (1987). ........................................ 18, 19
Grupo Mexicano de Desarrollo S.A. v. All. Bond
Fund, Inc.,
527 U.S. 308 (1999) ............................................... 11
Herring v. United States,
555 U.S. 135 (2009) ............................. 18, 21, 22, 23
Hormel v. Helvering,
312 U.S. 552 (1941) ............................................... 14
Kaupp v. Texas,
538 U.S. 626 (2003) ......................................... 22, 24
Lawrence v. Chater,
516 U.S. 163 (1996) ................................... 15, 16, 17
Mapp v. Ohio,
367 U.S. 643 (1961) ............................................... 24
Samson v. California,
547 U.S. 843 (2006) ........................................... 9, 20

vi
Silverman v. United States,
365 U.S. 505 (1961) ............................................... 24
Singleton v. Wulff,
428 U.S. 106 (1976) ................................... 10, 11, 14
United States v. Artis,
919 F.3d 1123 (9th Cir. 2019) ............................... 25
United States v. Bershchansky,
788 F.3d 102 (2d Cir. 2015)................................... 23
United States v. Black,
918 F.3d 243 (2d Cir. 2019)................................... 14
United States v. Burke,
504 U.S. 229 (1992) ............................................... 11
United States v. Dean,
717 F. App’x 925 (11th Cir. 2017) ........................... 6
United States v. Flaugher,
805 F.3d 1249 (10th Cir. 2015) ............................... 5
United States v. Julius,
610 F.3d 60 (2d Cir. 2010)..................................... 25
United States v. Knights,
534 U.S. 112 (2001) ................................. 2, 3, 19, 20
United States v. Leon,
468 U.S. 897 (1984) ......................................... 23, 25
United States v. Loera,
923 F.3d 907 (10th Cir. 2019) ............................... 25
United States v. Samuels,
808 F.2d 1298 (8th Cir. 1987) ............................... 12
United States v. Sineneng-Smith,
140 S. Ct. 1575 (2020) ........................... 1, 10, 12, 14
United States v. Winston,
850 F.3d 377 (8th Cir. 2017) ................................... 5
Weeks v. United States,
232 U.S. 383 (1914) ............................................... 24
Wood v. Milyard,
566 U.S. 463 (2012). ........................................ 12, 13

vii
Youakim v. Miller,
425 U.S. 231 (1975) ............................................... 11
Statutes
18 U.S.C. § 3583 .......................................................... 5
28 U.S.C. § 1254(1) ...................................................... 4
Cal. Penal Code Ann. § 3067(a) (West 2000)............ 20
Wis. Stat. § 973.10(1) (1985–1986) ........................... 18
Constitutional Provision
U.S. Const. amend. IV. ................................................ 5
Other Authorities
Paul D. Carrington, A Critical Assessment of the
Cultural and Institutional Roles of Appellate
Courts, 9 J. App. Prac. & Process 231 (2007) ....... 27
U.S. SENTENCING GUIDELINES MANUAL
§ 5D1.3(d)(7)(C) (U.S. SENTENCING COMM’N 2016) 5
Wayne LaFave, Search and Seizure: A Treatise on
the Fourth Amendment § 1.3(g) (5th ed. 2019)..... 26
Wis. Admin. Code HSS § 328.16(1) (1981) ............... 18
Wis. Admin. Code HSS § 328.21(4) (1981) ............... 19

1
INTRODUCTION
On the same day this Court decided United States
v. Sineneng-Smith, 140 S. Ct. 1575 (2020), reaffirming
the party presentation principle, the Second Circuit
denied the petition for rehearing en banc in this case,
effectively sanctioning an even more egregious
example of the conduct this Court decried in
Sineneng-Smith. Despite chiding the government for
not raising an exclusionary rule issue in the district
court or on appeal, the Second Circuit affirmed the
Petitioner’s conviction—based solely on that issue—
without even giving Petitioner an opportunity to
address it.
1. Petitioner Michael Elder, previously a federal
supervisee, signed an agreement with the government
when he began his term of supervised release. The
agreement permitted probation officers to search his
home, but only where they had reasonable suspicion
of illicit activity. Despite their knowledge of this
requirement, a phalanx of probation and other federal
officers raided Elder’s home without reasonable
suspicion. The government then used the poisonous
fruits of that search to charge Elder with additional
crimes.
2. The district court correctly found that the
officers lacked reasonable suspicion to search Elder’s
home. But the court upheld the search, concluding
that, because the release conditions do not expressly
require reasonable suspicion, and given Elder’s status
as a federal supervisee, no suspicion was needed to
conduct the search. On appeal, the Second Circuit
accepted the district court’s finding that the search
lacked reasonable suspicion. It also acknowledged
that neither it nor this Court has ever “addressed the

2
issue of the reasonableness of a suspicionless search
of a supervised releasee’s home when the supervisee
did not explicitly consent to such a search.” App. 7a.
The Second Circuit sidestepped the issue, however,
while also declining to adopt the district court’s
holding that no suspicion was needed. Instead, in a
puzzling turn of events, the Second Circuit held that,
even assuming Elder’s Fourth Amendment rights
were violated, suppression was not warranted because
the search did not involve “the kind of flagrant or
abusive police conduct that warrants application of
the exclusionary rule.” App. 8a.
3. But neither party briefed or argued the
exclusionary rule issue in the district court or on
appeal. Indeed, the government neglected to raise the
issue even after prompting from the Magistrate Judge
that it had failed to meet its burden in proving that
“the exclusionary rule is not a proper remedy” in this
case. App. 29a. Because the Second Circuit’s decision
rests upon a premise that it would reject if given the
opportunity for consideration of this Court’s
reaffirming precedent, and it appears that such a
redetermination may determine the ultimate
outcome, this Court should grant the petition, vacate
the Second Circuit’s judgment, and remand for further
consideration in light of Sineneng-Smith.
4. Even if this Court determines that a GVR order
is not appropriate here, the petition should be decided
on the merits. This case also presents a variation of
the question this Court left open in United States v.
Knights, 534 U.S. 112, 120, n.6 (2001): whether a
condition of release that does not expressly allow for
suspicionless searches can so diminish or eliminate a
federal supervisee’s reasonable expectation of privacy

3
such that a suspicionless search of his home by a
probation officer would not offend the Fourth
Amendment. 1
5. This case is an ideal vehicle to resolve the
questions presented because (i) it permits this Court
an opportunity to correct the Second Circuit’s error in
deciding an important question of law that conflicts
with this Court’s recent decision in Sineneng-Smith;
and (ii) it squarely presents the issue whether the
Fourth Amendment protects a federal supervisee from
suspicionless searches of his home—an issue that has
not been, but should be, settled by this Court. When
rights and procedures as basic as those in this case are
openly flouted, both by appellate judges and federal
officers, it becomes this Court’s duty to step in and
right those wrongs.
For these reasons and those that follow, this Court
should grant certiorari, vacate the Second Circuit’s
decision, and remand for further proceedings in light
of Sineneng-Smith, or grant certiorari on the merits
and reverse the Second Circuit’s decision.
PETITION FOR WRIT OF CERTIORARI
Petitioner Michael Elder respectfully petitions this
Court for writ of certiorari to review the judgment of
the United States Court of Appeals for the Second
Circuit.

Knights, 534 U.S. at 120 n.6 (“We do not decide whether the
probation condition so diminished, or completely eliminated,
Knights’ reasonable expectation of privacy . . . that a search by a
law enforcement officer without any individualized suspicion
would have satisfied the reasonableness requirement of the
Fourth Amendment.”
1

4
OPINIONS BELOW
The Second Circuit’s denial of the petition for
rehearing en banc is currently unreported and is
reproduced at page 1a of the Appendix (“App.”) to this
petition. Elder appealed the decision of the District
Court for the Western District of New York,
reproduced at page 10a of the Appendix to this
petition and is available at No. 17-CR-05-A, 2018 WL
833132 (W.D.N.Y. Feb. 13, 2018).
The Second
Circuit’s unpublished summary order is reproduced at
page 2a of the Appendix to this petition and is
available at 805 F. App’x 19 (2d Cir. 2020).
STATEMENT OF JURISDICTION
The judgment of the Second Circuit denying
Elder’s petition for rehearing was entered on May 7,
2020. App. 1a. This Court has jurisdiction under 28
U.S.C. § 1254(1).
In light of the public health concerns surrounding
the COVID-19 pandemic, this Court issued an order
on March 19, 2020, granting an extension of time to
file any petition for writ of certiorari to 150 days from
the date of an order denying a timely petition for
rehearing. Thus, this Petition is timely under Rule
13.1 of this Court.
CONSTITUTIONAL PROVISION
The Fourth Amendment to the United States
Constitution provides:
The right of the people to be secure in
their persons, houses, papers, and
effects, against unreasonable searches
and seizures, shall not be violated, and
no Warrants shall issue, but upon
probable cause, supported by Oath or

5
affirmation, and particularly describing
the place to be searched, and the persons
or things to be seized.
U.S. Const. amend. IV.
STATEMENT OF THE CASE
Elder begins his term of supervised release
with conditions that require reasonable
suspicion for a search. In July 2016, Michael Elder
began a five-year term of supervised release after
serving time for non-drug-related offenses. App. 10a.
The supervision agreement laid out the standard
conditions and special conditions for release. App.
23a. One of the special conditions stated: “[t]he
defendant shall submit to a search of his person,
property, vehicle, place of residence or any other
property under his control and permit confiscation of
any evidence or contraband discovered.” App. 23a.
The statute defining the terms of federal supervision,
18 U.S.C. § 3583, and pertinent guidance material,
U.S.
SENTENCING
GUIDELINES
MANUAL
§ 5D1.3(d)(7)(C) (U.S. SENTENCING COMM’N 2016),
clarify that officers must demonstrate reasonable
suspicion that the supervisee has violated his terms of
release before they may conduct a search under this
condition. 2 The sample language for search conditions
Although Section 3583 and the U.S. Sentencing Guidelines
reference the Sex Offender Registration and Notification Act
(SORNA), every circuit to consider the issue has held that
§ 3583(d) provides appropriate guidance for all federal supervisee
searches, not just SORNA-registered supervisees. See, e.g.,
United States v. Winston, 850 F.3d 377, 379 (8th Cir. 2017) (“There
is nothing in the language of § 3583(d) limiting the search
condition only to felons who are required to registered under
SONRA.”); United States v. Flaugher, 805 F.3d 1249, 1252 (10th
Cir. 2015) (“The text of § 3583(d) does not limit the possibility of a
2

6
provided by both the Administrative Office of the U.S.
Court and the U.S. Parole Commission also require
reasonable suspicion for warrantless searches. See
Admin. Office of United States Courts Prob. and
Pretrial Servs. Office, Overview of Prob. and
Supervised Release Conditions 78–79 (2016)
(warrantless searches permitted “only when
reasonable suspicion exists”); U.S. Parole Comm’n R.
& Proc. Man. § 2.204‐18(b)(3) (2010) (releasee shall
submit to searches “based upon reasonable
suspicion”).
Officer James Dyckman was assigned as Elder’s
probation officer. App. 23a. Over the next few
months, Officer Dyckman visited Elder’s residence on
two to three occasions. App. 23a. On no occasion did
Dyckman ever report that Elder had violated any
condition of his supervised release. App. 23a. Elder,
who had no prior drug-related offenses, was employed
and consistently passed drug tests during this period.
App. 23a.
The Drug Enforcement Administration
receives
anonymous,
uncorroborated
tips
alleging that Elder is selling drugs. From August
to October 2016, the DEA received four anonymous
online tips alleging that Elder was distributing
narcotics from his home. App. 24a. The government
elected to put only two of the four tips into evidence.
App. 24a. The first tip, made on August 31, 2016,
stated: “federal probation officer James Dyckman to
warrantless search condition to felons required to register under
SONRA.”); United States v. Dean, 717 F. App’x 925, 933 (11th Cir.
2017) (collecting cases and rejecting the argument that § 3583(D)
applies only to sex offenders).

7
tap this phone number 917 957 [****], if you want
heroin off the buffalo streets.” App. 24a. A few weeks
later, the second tip came in: “Michael Elder 143
Edgewood tondowanda [sic] ny, this guy is dealing
heroin to our neighborhood. I live on this street,
expensive cars in and out of this address, large boxes
being delivered stuffed with heroin. How many
overdoses must occur before my street is safe from a
well-known fentanyl dealer?” App. 24a. Despite the
anonymous nature of these tips, DEA agents took no
steps to confirm their veracity. App. 24a. Instead, the
DEA chose to forward the tips to Dyckman on
November 2, 2016. App. 24–25a. More than 60 days
had elapsed since the DEA first received the first tips.
Like the DEA, Dyckman also made no effort to confirm
or corroborate the tips. App. 24–25a. Dyckman even
testified that the anonymous tips could have been
submitted by the same person and could have been
nothing more than a prank. App. 25a. Nevertheless,
based solely on the tips, Dyckman immediately
scheduled a search of Elder’s home for the next day.
App. 25a.
Nine federal agents raid Elder’s home. The
following morning, Officer Dyckman, three DEA
agents, and five additional probation officers
conducted an extensive search of Elder’s home. App.
25a.
The search revealed currency, controlled
substances, and drug paraphernalia. App. 11a, 25a.
The Magistrate Judge Recommends that the
evidence seized be suppressed. Elder moved to
suppress the evidence obtained from the November
3rd search at trial. App. 22a. The Magistrate Judge
recommended that the evidence be suppressed
because (i) “[t]he tipsters were anonymous and did not

8
reveal the basis of their knowledge” App. 27a; (ii)
“Dyckman did not attempt to corroborate the
information or to otherwise vet the reliability of the
tips” App. 27–28a; and (iii) “’[w]hile there were
multiple tips, this is not an instance where two
independent but anonymous sources corroborate each
other to supply reasonable suspicion[;] Indeed PO
Dyckman never verified whether the tips came from
one individual or separate individuals.” App. 28a.
The Magistrate Judge also explained that, because
the government had “made no attempt to satisfy” its
“burden to prove that the exclusionary rule is not a
proper remedy” for Dyckman’s Fourth Amendment
violation, he would determine whether the rule was
inapplicable. App. 29a. Moreover, he noted that (i)
the government would waive “any right to further
judicial review of [his] decision if it did not file a timely
objection; and (ii) “the district judge will ordinarily
refuse to consider de novo arguments, case law and/or
evidentiary material which could have been, but were
not presented to the magistrate judge in the first
instance.” App. 32a. Perhaps realizing that it had
waived the argument, the government filed its
Objections to the Magistrate Judge’s Report and
Recommendation without raising the exclusionary
rule issue. See ECF No. 33. 3
The District Judge denies Elder’s Motion to
Suppress, despite the Magistrate’s contrary
recommendation. The District Judge agreed that no
reasonable suspicion existed, App. 12a, but he rejected
the Magistrate’s recommendation that the evidence be
The citation refers to the ECF number of the Government’s
Objections to the Magistrate’s Judge’s Report and
Recommendation in the district court’s docket.

3

9
suppressed, for two reasons. First, the District Judge
found that because the release conditions do not
expressly require reasonable suspicion, the search
condition authorized suspicionless searches. App.
13a. Second, he reasoned that, although “the law is
not clear on whether the Fourth Amendment permits
a person on federal supervised release to be subject to
suspicionless searches,” Samson v. California, 547
U.S. 843 (2006) suggests that a federal supervisee is
similarly situated to a parolee, and the former
therefore has no expectation of privacy that society
would recognize as legitimate. App. 13a. With the
admitted evidence, Elder was found guilty at trial.
Elder appeals to the Second Circuit. On appeal
to the Second Circuit, Elder argued that the federal
officers’ actions were unreasonable under the Fourth
Amendment because no federal statute authorized
such a suspicionless search, and Elder did not
expressly consent to such a search. ECF No. 43 at 15–
20. 4 The government’s sole argument on appeal was
that the totality of the circumstances permitted the
suspicionless home search. ECF No. 61 at 16. 5 At no
time did the government so much as hint that it was
relying on the inapplicability of the exclusionary rule
in its argument. Indeed, when the panel inquired of
the government why it had failed to argue that the
exclusionary should not apply to this case, the
government replied: “I do not know. And . . . standing

The citation refers to the ECF number and PDF page number
of Appellant’s Brief in the Second Circuit’s docket.
4

The citation refers to the ECF number and PDF page number
of Appellee’s Brief in the Second Circuit’s docket.
5

10
as the appellate attorney here, I wish that they did.”
Record of Oral Argument at 14:28–15:04.
The Second Circuit affirmed the district court’s
decision anyway. App. 2a. Notably, the panel
accepted Elder’s argument that federal officers lacked
reasonable suspicion and even assumed that Elder did
not validly consent to the suspicionless search. App.
7–8a. Nevertheless, the Second Circuit held that the
illegal home search did not amount to the “kind of
flagrant or abusive police misconduct that warrants
application of the exclusionary rule.” App. 8a. Thus,
even though the government waived the argument
and neither party argued or briefed the exclusionary
issue in the district court or on appeal, the court still
based its decision entirely upon its conclusion that the
exclusionary rule should not apply. App. 7–8a. A few
weeks later, the Second Circuit denied Elder’s petition
for rehearing en banc. App. 1a.
I.

REASONS FOR GRANTING THE WRIT
An order granting certiorari, vacating the
judgment below, and remanding for
further consideration is an appropriate
remedy in this case.

The Second Circuit’s decision to raise sua sponte—
and rely solely on—an exclusionary rule issue that
was waived and neither briefed nor argued by the
government (or Petitioner) is inconsistent with this
Court’s precedent and long-standing principles of
appellate decision-making. In light of this Court’s
recent decision reaffirming the party presentation
principle in United States v. Sineneng-Smith, 140 S.
Ct. 1575 (2020), this Court should grant the petition,

11
vacate the Second Circuit’s judgment, and remand the
case for further consideration.
A. The Second Circuit violated the
party presentation principle by
considering the exclusionary rule’s
applicability to this case sua sponte.
In our adversarial system, it is a generally
accepted rule “that a federal appellate court does not
consider an issue not passed upon below.” Singleton
v. Wulff, 428 U.S. 106, 120 (1976). This rule is “more
than just a prudential rule of convenience; its
observance, at least in the vast majority of cases,
distinguishes our adversary system of justice from the
inquisitorial one.” United States v. Burke, 504 U.S.
229, 246 (1992) (Scalia, J., concurring). Indeed, “in
both civil and criminal cases, in the first instance and
on appeal . . . , we rely on the parties to frame the
issues for decision and assign to courts the role of
neutral arbiter of matters the parties present.”
Greenlaw v. United States, 554 U.S. 237, 243 (2008).
Consequently, this Court has avowed that appellate
courts should only consider unraised issues in
exceptional cases where “injustice might otherwise
result.” Singleton, 428 U.S. at 121 (internal quotation
marks omitted).
This Court has repeatedly reaffirmed this
principle. E.g., Grupo Mexicano de Desarrollo S.A. v.
All. Bond Fund, Inc., 527 U.S. 308, 318 n.3 (1999)
(“Because this argument was neither raised nor
considered below, we decline to consider it.”);
Granfinanciera, S.A. v. Nordberg, 492 U.S. 33, 38
(1989) (“We decline to address this argument because
respondent failed to raise it below and because the

12
question it poses has not been adequately briefed and
argued.”); Youakim v. Miller, 425 U.S. 231, 234 (1975)
(“It is only in exceptional cases coming here from the
federal courts that questions not pressed or passed
upon below are reviewed.”); Giordenello v. United
States, 357 U.S. 480, 488 (1958) (holding, in the
Fourth Amendment context, that “[t]o permit the
Government to inject its new theory into the case at
this stage would unfairly deprive petitioner of an
adequate opportunity to respond”). Most recently,
this Court reaffirmed the party presentation principle
in United States v. Sineneng-Smith—on the very same
day the Second Circuit effectively sanctioned the
panel’s decision to rule on an exclusionary rule issue
that was waived and that neither party raised. 140 S.
Ct. at 1579.
In Sineneng-Smith, this Court held that the Ninth
Circuit departed from the principle of party
presentation by inviting amici to brief an unraised
First Amendment issue. Id. Sineneng-Smith dictates
the rule this Court should follow here. Federal courts
are passive instruments of government, and they “do
not, or should not, sally forth each day looking for
wrongs to right. [They] wait for cases to come to
[them], and when [cases arise, courts] normally decide
only questions presented by the parties. Id. (quoting
United States v. Samuels, 808 F.2d 1298, 1301 (8th
Cir. 1987) (Arnold, J., concurring in denial of reh’g en
banc)).
What makes this case far worse than SinenengSmith, however, is the fact that Elder was never even
given an opportunity to address the relevant issue. It
is precisely for that reason that “appellate courts
ordinarily abstain from entertaining issues that have

13
not been raised and preserved in the court of first
instance.” Wood v. Milyard, 566 U.S. 463, 473 (2012).
Undoubtedly, “[t]hat restraint is all the more
appropriate when the appellate court itself spots an
issue the parties did not air below, and therefore
would not have anticipated in developing their
arguments on appeal.” Id. Moreover, this matter is
hardly the type of “exceptional case” that has
traditionally warranted such extraordinary judicial
activism. See Greenlaw, 554 U.S. at 243-44 (“To the
extent courts have approved departures from the
party presentation principle in criminal cases, the
justification has usually been to protect a pro se
litigant’s rights.”) (emphasis added).
Any argument that the government did not waive
the exclusionary rule issue is belied by the record.
“Waiver is the intentional relinquishment or
abandonment of a known right.” Wood, 566 U.S. at
474 (internal quotation marks omitted).
The
government’s conduct in this case fits that description.
The government made no attempt to meet its burden
in proving that the exclusionary rule is not a proper
remedy in this case. Even after prompting from the
Magistrate Judge and a warning that the failure to
object to the specifics of his recommendation would
constitute a waiver of “any right to further judicial
review,” App. 32a, the government still neglected to
challenge the applicability of exclusionary rule. At
bottom, the government knew that it could have
argued the inapplicability of the exclusionary rule, yet
it chose to refrain from doing so.
It is all the more galling, then, that, instead of
adjudicating the arguments presented by the parties,
the panel devised and implemented its own legal

14
argument, summarily concluding that this case did
not involve “the kind of flagrant or abusive police
misconduct that warrants application of the
exclusionary rule.” See App. 8a. This Court has
deemed it “essential . . . that litigants may not be
surprised on appeal by final decision there of issues
upon which they have had no opportunity to introduce
evidence.” Hormel v. Helvering, 312 U.S. 552, 556
(1941); see also United States v. Black, 918 F.3d 243,
255 (2d Cir. 2019) (explaining that courts will not
consider unraised arguments unless “manifest
injustice” otherwise would result). Yet the panel
never even bothered to explain the “manifest
injustice” it was seeking to avoid.
While the federal courts of appeals may have
discretion to address an unargued issue, see, e.g., Day
v. McDonough, 547 U.S. 198, 202 (2006) (holding that
a federal court had “authority, on its own initiative,”
to correct a party’s “evident miscalculation of the
elapsed time under a statute [of limitations]” absent
“intelligent waiver”), it was particularly misplaced to
do so here with a novel exception to the exclusionary
rule. As this Court explained in Singleton: “The issue
resolved by the Court of Appeals has never been
passed upon in any decision of this Court. This being
so, injustice was more likely to be caused than avoided
by deciding the issue without petitioners having had
an opportunity to be heard.” 428 U.S. at 121.
The injustice is palpable here.
Elder faces
permanent deprivations of liberty because the Second
Circuit violated basic tenets of appellate decisionmaking. And while this Court acknowledged in
Sineneng-Smith that the party presentation principle
is “supple, not ironclad,” deviations from the general

15
rule typically call for supplemental briefing—
something that was conspicuously absent here. 140 S.
Ct. at 1579 n.4. If the panel wanted to consider the
exclusionary rule or formulate a new exception, it
should have, at the very minimum, required fullybriefed arguments on the matter.
B. There is a reasonable probability
the Second Circuit would rule
differently in light of SinenengSmith.
As this Court explained in Lawrence v. Chater, 516
U.S. 163 (1996), “the GVR order has, over the past 50
years, become an integral part of this Court’s practice,
accepted and employed by all sitting and recent
Justices. We have GVR’d in light of a wide range of
developments, including our own decisions.” Id. at
166. This Court has made clear that a GVR order is
appropriate where, as here, “recent developments that
. . . the court below did not fully consider, reveal a
reasonable probability that the decision below rests
upon a premise that the lower court would reject if
given the opportunity for further consideration, and
where it appears that such a redetermination may
determine the ultimate outcome.” Id. at 167.
This case fits that bill and also falls within the first
category of GVR orders recognized in Lawrence—
“intervening factors”—because it includes “at least
Supreme Court decisions rendered so shortly before
the lower court’s decision that the lower court had no
‘opportunity’ to apply them.” Id. at 169. Here,
Sineneng-Smith was decided on the same day the
Second Circuit rejected Elder’s petition for rehearing
en banc. Sineneng-Smith is a stern reminder of the

16
party presentation principle—which federal courts of
appeals all-too-frequently ignore—and this Court’s
decision in Sineneng-Smith “cast[s] substantial doubt
on the correctness of the lower court’s summary
disposition.” Lawrence, 516 U.S. at 170. Given this
recent denouncement of judicial intermeddling, it
seems all but certain that the Second Circuit would
have refrained from addressing the exclusionary
rule’s applicability in retrospect. An opportunity for
reconsideration would allow the Second Circuit to rule
on the case actually presented by the parties.
Significant prudential concerns also weigh in favor
of granting a GVR order in this matter. As this Court
emphasized in Lawrence, “ambiguous summary
dispositions below tend, by their very nature, to lack
the precedential significance that we generally look
for in deciding whether to exercise our discretion to
grant plenary review.” Id. at 170. This is particularly
relevant where, as here, a panel of judges created a
novel exception to the exclusionary rule, premised on
cursory analysis totaling just over three hundred
words. Given the magnitude of the legal issue at
stake, a far more robust analysis was required.
Moreover, exercise of this Court’s discretionary
certiorari jurisdiction to issue a GVR order in this case
will also “conserve[] the scarce resources of this Court
that might otherwise be expended on plenary
consideration, assist[] the court below by flagging a
particular issue that it does not appear to have fully
considered, and alleviate[] the ‘[p]otential for unequal
treatment’ . . . inherent in [this Court’s] inability to
grant plenary review.” Id. at 167. The record is
clear—raising a waived issue sua sponte, the cursory
analysis, and the novelty of the exception created—

17
that the exclusionary rule issue was not adequately
considered by the Second Circuit. A GVR order in this
case will help “improve the fairness and accuracy of
judicial outcomes” by giving district courts a coherent
exclusionary rule framework, “while at the same time
serving as a cautious and deferential alternative to
summary reversal.” Id. at 168.
II.

The Second Circuit’s ruling contravenes
long-standing
Fourth
Amendment
jurisprudence by holding that a knowing
violation of a supervisee’s rights does not
constitute flagrant conduct.

Even if this Court determines that a GVR order is
not appropriate here, the petition should be decided
on the merits. The Second Circuit erred in holding
that the exclusionary rule does not apply to this case.
The officers here knew that reasonable suspicion was
required to search Elder’s home and yet chose to
conduct the search anyway. Such action constitutes a
deliberate disregard for Elder’s Fourth Amendment
rights. Disallowing application of the exclusionary
rule even in the face of flagrant conduct creates an
entirely new exception to the rule. This new exception
all but abrogates the Fourth Amendment in the
supervisee context, sanctioning precisely the type of
conduct against which the exclusionary rule was
meant to protect. See Herring v. United States, 555
U.S. 135, 144 (2009) (“[T]he exclusionary rule serves
to deter deliberate, reckless, or grossly negligent
conduct.”). As a result, the Second Circuit’s decision
must be reversed.

18
A. The Fourth Amendment prohibits
suspicionless
searches
in
the
absence of express consent.
This Court has stated that “[a supervisee’s] home,
like anyone else’s, is protected by the Fourth
Amendment’s requirement that searches be
“reasonable.” Griffin v. Wisconsin, 483 U.S. 868, 873
(1987). And while supervisees are subjected to a
lesser constitutional standard, the state may not
endlessly diminish their uniquely balanced rights by
acting beyond the scope of the supervisee’s consent.
See id. at 875, 880.
Supervisees retain their
constitutional rights, and any limitations on those
rights must be clearly stated. The Griffin and Knights
line of cases illustrates the scope of a supervisee’s
consent through statute and terms of supervision.
In Griffin, the Court examined the validity of a
search that officers undertook pursuant to a
Wisconsin statute that specifically authorized the
warrantless search of those living under state
supervision and regulations that expressly addressed
consent. 483 U.S. at 870 (citing Wis. Stat. § 973.10(1)
(1985–1986)).
Wisconsin issued regulations
permitting probation officers to search supervisees
and their places of residence when officers had
“reasonable grounds” to believe that contraband
existed there. Id. at 870–71 (citing Wis. Admin. Code
HSS §§ 328.21(4), 328.16(1) (1981)).
This Court provided lower courts with multiple
factors for determining whether an officer had
“reasonable grounds” to search. Id. These factors
paralleled the requirements of the federal “reasonable
suspicion” standard, and included analyzing any tips

19
received for “the reliability and specificity of that
information, the reliability of the informant (including
whether the informant has any incentive to supply
inaccurate information), the officer’s own experience
with the probationer, and the ‘need to verify
compliance with rules of supervision and state and
federal law.’” Id. at 871 (citing Wis. Admin. Code HSS
§ 328.21(7) (1981)).
This Court held that officers satisfied Fourth
Amendment requirements in Griffin because
Wisconsin had specific regulations authorizing
officers to search supervisees and their residences. Id.
at 880. Officers could not have used their search
power arbitrarily because they were restrained by the
“reasonable grounds” requirement provided in the
regulations. See id. The search was only reasonable
because it was pursuant to an otherwise reasonable
statute—one that balanced the individual’s interests
against the state’s special needs and contemplated the
consent of the probationer. See id.
Building on Griffin, this Court explained in
Knights that supervision agreements and the notice
that each supervisee receives when signing the
agreement, defines the scope of the state’s power over
that supervisee. See Knights, 534 U.S. at 114. In
Knights, this Court considered a California law that
imposed a search condition on those living under
government supervision. Id. That law required every
probationer to “submit his . . . person, property, place
of residence, vehicle, personal effects, to search at
anytime, with or without a search warrant, warrant of
arrest or reasonable cause by any probation officer or
law enforcement officer.” Id. Knights signed an
agreement including that condition. Id. He indicated

20
that he had “received a copy, read and underst[ood]
the above terms and conditions of probation and
agree[d] to abide by the same.” Id. This Court,
reading the explicit language of the supervision
agreement, held that Knights’ Fourth Amendment
privacy rights were not abrogated because he
consented to those terms. Id.
This Court examined the scope of supervisees’
Fourth Amendment rights further in Samson. There,
the California legislature acted statutorily to mandate
that parolees agree to be subject to suspicionless
searches before they would be released. 547 U.S. at
846; see also Cal. Penal Code Ann. § 3067(a) (West
2000). The statute specifically required parolees to
“agree in writing to be subject to search or seizure by
a parole officer or other peace officer at any time of the
day or night, with or without a search warrant and
with or without cause.” Samson, 547 U.S. at 846
(quoting Cal. Penal Code Ann. § 3067(a) (West 2000)
(emphasis added)).
By signing a supervision
agreement under this specific circumstance, a parolee
would be consenting to a suspicionless search.
Because Samson had signed and agreed to this term,
the Court held that there was no constitutional issue
with subjecting him, based on that consent, to
suspicionless searches. Id. at 851–52.
As illustrated by these cases, the terms that each
supervisee explicitly consents to—and only those
terms—define the conditions under which officers
may search him.

21
B. Dyckman deliberately chose to flout
the Fourth Amendment and conduct
a suspicionless search of Elder’s
home.
Dyckman’s suspicionless search of Elder’s home
was a flagrant violation of the Fourth Amendment
because he knew that Elder had not expressly
consented to suspicionless searches. Indeed, Dyckman
admitted that he had interpreted the release
conditions (as any reasonable officer would) as
requiring reasonable suspicion to conduct a search,
yet he chose to proceed without it. Under Herring,
evidence should be suppressed if it is obtained by a
“flagrant or deliberate violation of [Fourth
Amendment] rights.” 555 U.S. at 143. Conduct is
flagrant “if it can be said that the law enforcement
officer had knowledge, or may properly be charged
with knowledge, that the search was unconstitutional
under the Fourth Amendment.”
Id. (internal
quotations omitted).
Dyckman may be charged with knowledge that
anonymous tips, on their own, do not give rise to
reasonable suspicion. See Florida v. J.L., 529 U.S.
266, 271 (2000) (noting that reasonable suspicion
cannot arise from “the bare report of an unknown,
unaccountable informant”).
Moreover, Dyckman
testified that he knew he needed reasonable suspicion
before conducting a search of Elder’s home, implicitly
acknowledging that Elder had not expressly
consented to suspicionless searches. App. 12-13a.
The Second Circuit’s holding cannot, therefore, be
squared with this Court’s precedents and the extant
record.
Put differently, if a knowingly illegal,

22
suspicionless search by nine federal officers, based on
anonymous and unverified online tips does not
constitute “flagrant or abusive police misconduct”
sufficient to warrant exclusion, it is difficult to
conceive of what would.
C. The exclusionary rule was meant to
deter precisely the kind of flagrant
official misconduct at play in this
case.
The Second Circuit’s holding that a knowingly
illegal search, conducted by officers, is not subject to
the exclusionary rule flies in the face of this Court’s
exclusionary rule jurisprudence. “[T]he exclusionary
rule serves to deter deliberate, reckless, or grossly
negligent conduct.” Herring, 555 U.S. at 144. “[T]o
trigger the exclusionary rule, police conduct must be
sufficiently
deliberate
that
exclusion
can
meaningfully deter it, and sufficiently culpable that
such deterrence is worth the price paid by the justice
system.” Id. at 140, 144.
This Court has commonly applied the exclusionary
rule to deliberate police misconduct. See, e.g., Davis
v. United States, 564 U.S. 229, 238 (2011) (noting that
in cases where officer conduct is deliberate, reckless,
or grossly negligent, the value of deterrence is high
and commonly outweighs the resulting costs of
exclusion); Kaupp v. Texas, 538 U.S. 626, 628 (2003)
(applying the exclusionary rule to a confession where
officers flagrantly violated an arrestee’s rights by
knowingly arresting him without probable cause).
Here, Officer Dyckman intentionally chose to search
Elder’s home without reasonable suspicion. This sort

23
of deliberate police misconduct outweighs the costs of
exclusion and should be deterred.
Moreover, the officers in this case cannot avail
themselves of the good faith exception to the
exclusionary rule. 6 Unlike prior applications of the
good faith exception, this case does not involve good
faith reliance on an administrative error. See Herring,
555 U.S. at 137; United States v. Leon, 468 U.S. 897,
922 (1984). In United States v. Leon, this Court
created an exception to the exclusionary rule for
“minor” transgressions made in good faith. 468 U.S.
at 908 (declining to apply the exclusionary rule to
evidence obtained under a facially valid warrant that
later turned out to be invalid due to a magistrate’s
error because exclusion would provide only
incremental deterrent value). Similarly, in Herring,
this Court applied the good faith exception to
“innocent” officers who relied mistakenly but in good
faith upon sheriff’s records that had not been updated.
555 U.S. at 139. The search at issue in this case is
different in-kind from these types of innocuous, good
faith mistakes.
Here, officers intentionally and
deliberately disregarded the need for reasonable
suspicion and conducted an illegal home search
anyway. This Court has never applied the good faith

It should also be noted that “[t]he burden is on the government
to demonstrate the objective reasonableness of the officers’ good
faith reliance.” United States v. Bershchansky, 788 F.3d 102, 114
(2d Cir. 2015) (finding that the government failed its burden
where a warrant erroneously listed “Apartment 2” instead of
“Apartment 1” and officers executed a search of Apartment 1
anyway).
At no point in the current litigation has the
government attempted to satisfy that burden.
6

24
exception to such blatant and intentional misconduct
and should not do so here.
Moreover, this Court’s exclusionary rule
jurisprudence suggests that the rule’s deterrent value
reaches its apogee where, as here, the flagrant
conduct involves an invasion or search of the home.
See, e.g., Kaupp, 538 U.S. at 628, 633 (finding flagrant
violation where a warrantless arrest was made in the
arrestee’s home after police were denied a warrant
and at least some officers knew they lacked probable
cause); Weeks v. United States, 232 U.S. 383, 386, 393–
94 (1914) (flagrant conduct where officers lacking in
sworn and particularized information broke into
defendant’s home, confiscated incriminating papers,
then returned with U.S. Marshal to confiscate even
more); Mapp v. Ohio, 367 U.S. 643, 644–45 (1961)
(flagrant conduct existed where officers forced open a
door to Ms. Mapp’s house, kept her lawyer from
entering, brandished what the court concluded was a
false warrant, then forced her into handcuffs and
canvassed the house for obscenity). This pattern is
hardly surprising, given that, at the very core of the
Fourth Amendment “stands the right of a man to
retreat into his own home and there be free from
unreasonable government intrusion.” Silverman v.
United States, 365 U.S. 505, 512 (1961); see also
Florida v. Jardines, 569 U.S. 1 (2013) (“When it comes
to the Fourth Amendment, the home is first among
equals.”).
Similarly, several Circuits have recognized the
strong deterrent value in excluding evidence obtained
through intentional police misconduct. For example,
in United States v. Julius, the Second Circuit
acknowledged that a “warrantless search . . . entails

25
different concerns about deterrence of police
misconduct.” 610 F.3d 60, 67 (2d Cir. 2010). Indeed,
“[u]nlike in Herring, in which the alleged error was
attenuated from the search, the error here was made
by the searching officer.” Id. (emphasis added). The
Tenth Circuit has also noted the importance of
deterring unlawful police conduct. See United States
v. Loera, 923 F.3d 907, 925 (10th Cir. 2019) (holding
that “the good faith exception does not apply . . .
because the illegality at issue stems from unlawful
police conduct, rather than magistrate error, and
therefore the deterrence purposes of the Fourth
Amendment are best served by applying the
exclusionary rule.”) (emphasis in original). Likewise,
the Ninth Circuit recently suppressed evidence
discovered through police, rather than administrative,
misconduct. See United States v. Artis, 919 F.3d 1123,
1134 (9th Cir. 2019) (refusing to apply the good faith
exception because “the police discovered the evidence
through conduct that . . . is plainly unconstitutional,
in contrast to the ‘isolated negligence’ at issue in
Herring.”). Under the Second Circuit’s decision,
however, innocuous bookkeeping errors and
intentional suspicionless searches are equally
immune from exclusion.
Surely this type of
intentional officer misconduct is not the sort of
“minor” transgression this Court intended to
immunize from exclusion under Leon. See 468 U.S. at
908.
III.

This case presents issues of extraordinary
importance.

A GVR order is needed in this case to give district
courts a coherent exclusionary rule framework that
incentivizes law enforcement’s scrupulous compliance

26
with the Fourth Amendment’s mandates—which is of
particular importance in light of recent calls for an
increase in police accountability.
In addition to concerns about the propriety of the
Second Circuit’s novel exception to the exclusionary
rule, the Second Circuit’s brazen disregard for the
party presentation principle is unjustified and
undercuts the legitimacy of appellate determination.
Failure to provide advocate input necessarily results
in loss of litigant and public acceptance of the
judiciary’s integrity. See Paul D. Carrington, A
Critical Assessment of the Cultural and Institutional
Roles of Appellate Courts, 9 J. App. Prac. & Process
231, 236 (2007) (“Judges sitting on appellate benches
. . . [must] give serious attention to appellate
procedures and structures established to ensure the
measures of accountability and transparency required
to assure litigants, and the public, that the job is being
done, and being done by those whose job it is to do it.”).
Moreover, due process concerns are implicated
where an appellate court decides an issue not raised
or briefed, as the parties have been deprived of notice
and an opportunity to be heard. See id. (“If American
law is to play the traditional and expected role of
holding together a vast, diverse, and conflicted
population by assuring adequately shared trust in law
and its institutions, litigants must perceive that they
are getting the personal attention of judges that is the
heart of . . . Due Process.”). In deviating from the
party presentation principle here, the Second Circuit
not only deprived Elder of an opportunity to be noticed
and heard on the exclusionary rule issue, but it also
cast a shadow of doubt upon the integrity of appellate
determinations throughout the country.

27
Given the large number of suppression motions
regularly filed, it is critical that district courts have a
workable exclusionary rule standard to employ
moving forward.
District courts now face the
unenviable task of making sense of a malleable new
exclusionary rule framework that is at odds with this
Court’s and the Second Circuit’s Fourth Amendment
jurisprudence. What—if anything—constitutes “the
kind of flagrant or abusive police misconduct that
warrants application of the exclusionary rule” under
the Second Circuit’s new framework is unclear, to say
the least. See App. 8a. District courts should not be
asked to apply such an amorphous standard. See 1
Wayne LaFave, Search and Seizure: A Treatise on the
Fourth Amendment § 1.3(g) (5th ed. 2019) (“Extension
of the good faith exception beyond warrant cases
would . . . impose upon suppression judges the heavy
burden—indeed, intolerable burden—of frequently
making exceedingly difficult decisions.”).
Moreover, the Second Circuit’s new approach to
suppression all but gives law enforcement the green
light to disregard the Fourth Amendment. If evidence
seized from searches similar to the suspicionless home
search at issue here is nonetheless immune from the
exclusionary rule, it is difficult to deduce why law
enforcement would ever bother to comply with the
Fourth Amendment in the first place. Indeed, “an
across-the-board good faith exception would mean in
practice that appellate courts defer to trial courts and
trial courts defer to the police.” LaFave, supra, 1.3(g)
(internal quotation marks omitted).

28
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,

CHRISTINA JONES
WILLIAM & MARY LAW
SCHOOL APPELLATE AND
SUPREME COURT CLINIC
P.O. Box 8795
Williamsburg, VA 23187
Telephone: 757-221-7362

DWAYNE D. SAM*

*Counsel of Record

Counsel for Petitioner

WOMBLE BOND
DICKINSON (US) LLP
1200 Nineteenth Street, NW
Suite 500
Washington, DC 20036
Telephone: 202-857-4445
dwayne.sam@wbd-us.com

APPENDICES

1a
APPENDIX A
Case No. 18-3713
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
UNITED STATES OF AMERICA,
Appellee,
v.

DECIDED
May 7, 2020

MICHAEL ELDER,
Defendant-Appellant.
Appellant, Michael Elder, filed a petition for panel
rehearing, or, in the alternative, for rehearing en
banc. The panel that determined the appeal has
considered the request for panel rehearing, and the
active members of the Court have considered the
request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

2a
APPENDIX B
Case No. 18-3713-cr
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
UNITED STATES OF AMERICA,
Appellee,
v.

DECIDED
March 9, 2020

MICHAEL ELDER,
Defendant-Appellant.
SUMMARY ORDER
Before JACOBS, CHIN, and BIANCO, Circuit
Judges.
Appeal from the United States District Court for
the Western District of New York (Arcara, J.).
UPON DUE CONSIDERATION, IT IS
HEREBY
ORDERED,
ADJUDGED,
AND
DECREED that the judgment of the district court is
AFFIRMED.
Defendant‐appellant Michael Elder appeals a
judgment, entered November 30, 2018, following his
conviction at a jury trial, sentencing him principally
to 210 monthsʹ imprisonment for possession with
intent to distribute cocaine and fentanyl in violation
of 21 U.S.C. § 841(a)(1), 841(b)(1)(B), and 841(b)(1)(C),
as well as maintaining a drug‐involved premises in
violation of 21 U.S.C. § 856(a)(1) and 856(b). On

3a
appeal, Elder challenges the district courtʹs denial of
his motion to suppress the physical evidence found
during a warrantless search of his home. Specifically,
Elder, who was on supervised release for a prior
conviction at the time of the search, argues that the
search was not supported by reasonable suspicion and
thus violated the Fourth Amendment. We assume the
partiesʹ familiarity with the underlying facts,
procedural history, and issues on appeal.
In 2005, Elder was sentenced to a term of
imprisonment and supervised release for firearms
offenses and bank robbery. After completing his
prison term, he began his supervised released under
the supervision of U.S. Probation Officer James
Dyckman. As a supervisee, Elder was subject to the
following special search condition: “[Elder] shall
submit to a search of his person, property, vehicle,
place of residence or any other property under his
control and permit confiscation of any evidence or
contraband discovered.” Appʹx at 19. Elder indicated
by his signature that he consented to the search
condition. 7 During the course of Elderʹs supervision,
Dyckman received an email from the Drug
Enforcement Agency (“DEA”) advising that it had
received four anonymous emails over the course of two
months alleging that Elder was selling drugs from his
home. On the basis of these tips, Dyckman, along with
It is not clear whether Elder understood the search condition to
permit suspicionless searches. Indeed, when describing Elderʹs
signing of the special conditions, Dyckman testified that he
(Dyckman) understood the condition as “allow[ing] us to search
his property, his residence that he reports to us, any property
under his control upon reasonable suspicion to exercise that
right.” Dist. Ct. Dkt. No. 24 at 19‐20.

7

4a
eight other probation officers and DEA agents,
searched Elderʹs home and discovered drugs, cash,
and drug paraphernalia. Following the filing of
charges, Elder moved to suppress the evidence seized
during the search. The district court denied the
motion, holding that although the search was not
supported by reasonable suspicion, Elderʹs special
search condition authorized suspicionless searches.
DISCUSSION
I. Standard of Review
“On appeal from a district courtʹs ruling on a
motion to suppress evidence, we review legal
conclusions de novo and findings of fact for clear
error.” United States v. Berschansky, 788 F.3d 102,
108 (2d Cir. 2015). Mixed questions of fact and law are
reviewed de novo. Id.
II. Applicable Law
The Fourth Amendment protects the right of the
people to be free from unreasonable government
intrusion into areas where they have “a legitimate
expectation of privacy.” United States v. Newton, 369
F.3d 659, 664‐65 (2d Cir. 2004).
Persons on
supervised release have a diminished expectation of
privacy. See United States v. Edelman, 726 F.3d 305,
310 (2d Cir. 2013) (noting that supervisees “who sign
[waivers] manifest an awareness that supervision can
include intrusions into their residence and, thus, have
a severely diminished expectation of privacy” (quoting
Newton, 369 F.3d at 665)); United States v. Balon, 384

5a
F.3d 38, 44 (2d Cir. 2004) (noting that an individual
on supervised release has a “diminished expectation
of privacy that is inherent in the very term ‘supervised
release’”).
With few exceptions, a search is “not reasonable
unless it is accomplished pursuant to a judicial
warrant issued upon probable cause.” Skinner v. Ry.
Labor Exec.’s Ass’n, 489 U.S. 602, 619 (1989). One
exception to this general rule is when “special needs,
beyond the normal need for law enforcement, make
the warrant and probable cause requirement
impracticable.” Griffin v. Wisconsin, 483 U.S. 868,
873 (1987). Supervision is one such special need. Id.
at 875.
Suspicionless searches of a parolee do not violate
the Fourth Amendment if the parolee has expressly
consented to them. See Samson v. California, 547 U.S.
843, 846 (2006) (holding that a suspicionless search
did not violate the Fourth Amendment where the
defendant was a state parolee and California law
required that parolees “agree in writing to be subject
to search . . . with or without cause”). Though we have
upheld a search premised on a search condition that
did not explicitly provide for searches without
reasonable suspicion, see United States v. Massey,
there we noted that the search was in fact supported
by reasonable suspicion. 461 F.3d 177, 178‐79 (2d Cir.
2006). 8 We have recognized that in monitoring
We observe that the language of the search condition here
deviates from the sample language for such conditions provided
by both the Administrative Office of the U.S. Courts and the U.S.
Parole Commission, which require reasonable suspicion for
warrantless searches. See Admin. Office of United States Courts
Prob. and Pretrial Servs. Office, Overview of Prob. And
Supervised Release Conditions 78‐79 (2016) (warrantless

8

6a
individuals on supervised release, probation officers
must be given “considerable investigative leeway,”
United States v. Reyes, 283 F.3d 446, 457 (2d Cir.
2002), for in bringing a superviseeʹs offending conduct
to the attention of the court, they act as the “eyes and
ears” of the court, id. at 455.
The fact that the Fourth Amendment has been
violated does not mean that the exclusionary rule
must be invoked, for exclusion is not a necessary
consequence of a Fourth Amendment violation, but
rather is intended to deter “intentional conduct that
was patently unconstitutional.” Herring v. United
States, 555 U.S. 135, 143‐44 (2009); see also Davis v.
United States, 564 U.S. 229, 237 (2011) (noting that
while “real deterrent value is a necessary condition for
exclusion . . . it is not a sufficient one”). Accordingly,
“exclusion ‘has always been our last resort, not our
first impulse,’” and thus “to trigger the exclusionary
rule, police conduct must be sufficiently deliberate
that exclusion can meaningfully deter it, and
sufficiently culpable that such deterrence is worth the
price paid by the justice system.” Herring, 555 U.S. at
140, 144 (internal quotation marks omitted).
III. Analysis
As a preliminary matter, we accept for the
purposes of this appeal the district court’s finding that

searches permitted ʺonly when reasonable suspicion existsʺ);
U.S. Parole Commʹn R. & Proc. Man. § 2.204‐18(b)(3) (2010)
(releasee shall submit to searches ʺbased upon reasonable
suspicionʺ). The absence of such language would surely increase
the risk of abuse

7a
the anonymous tips did not provide reasonable
suspicion for the search.
While the Supreme Court has held that the
suspicionless search of a parolee does not violate the
Fourth Amendment, there the operative statute
clearly stated that the parolee consented to search
“with or without cause.” See Samson, 547 U.S. at 846.
Here, however, Elderʹs search condition does not
explicitly state that he is subject to search without
reasonable suspicion. Neither the Supreme Court nor
our Court has addressed the issue of the
reasonableness of a suspicionless search of a
supervised releaseeʹs home where the supervisee did
not explicitly consent to such a search.
We need not, however, decide the issue here. Even
assuming that Elderʹs Fourth Amendment rights were
violated because he did not validly consent to the
suspicionless search, suppression was not warranted
in light of the totality of the circumstances. Weighing
the “incremental deterrent” of excluding the evidence
found in Elderʹs home against “the substantial social
costs extracted by the exclusionary rule,” we conclude
that, even absent reasonable suspicion and assuming
a Fourth Amendment violation, the district court did
not err in denying the motion to suppress. Illinois v.
Krull, 480 U.S. 340, 352‐53 (1987).
As a supervisee, Elder had a “severely diminished
expectation of privacy.” Edelman, 726 F.3d at 310. In
contrast, the governmentʹs interests were substantial.
The government has an “overwhelming interest” in
supervising those on supervised release to “reduc[e]
recividism and thereby promoting reintegration and
positive citizenship” among supervisees. Samson, 547
U.S. at 853. Moreover, while the anonymous tips did

8a
not support reasonable suspicion, Dyckmanʹs conduct
“was rationally and reasonably related to the
performance of [his] duty. See Newton, 369 F.3d at
666. Indeed, another law enforcement agency ‐‐ the
DEA ‐‐ reported that there were four tips over the
course of two months that Elder, who was under
federal supervision, was engaging in the illegal
distribution of drugs. Even assuming Dyckman acted
unreasonably in failing to conduct further
investigation before executing the search, this is not
the kind of flagrant or abusive police misconduct that
warrants application of the exclusionary rule.
Bearing in mind that the exclusionary rule “applies
only where it ‘results in appreciable deterrence,’”
Herring, 555 U.S. at 141 (alteration omitted) (quoting
United States v. Leon, 468 U.S. 897, 909 (1984), and
weighing the deterrent effect against the serious cost
of “letting guilty and possibly dangerous defendants
go free,” United States v. Julius, 610 F.3d 60, 66 (2d
Cir. 2010) (quoting Herring, 555 U.S. at 141), we
conclude that, in the circumstances here, the
substantial social costs of suppressing the evidence
obtained during the search of Elderʹs home outweigh
the incremental deterrent value of granting it.
Accordingly, we conclude that the district court did
not err when it denied Elderʹs motion to suppress.
***
We have considered Elderʹs remaining arguments
and conclude they are without merit. For the foregoing
reasons, we AFFIRM the judgment of the district
court.

9a
FOR THE COURT:
Catherine OʹHagan Wolfe, Clerk

10a
APPENDIX C
Case No. 17-CR-05-A
UNPUBLISHED
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF NEW YORK
UNITED STATES OF AMERICA,

DECIDED
February 13, 2018

v.
MICHAEL ELDER,
Defendant.

This case is before the Court on the Government’s
objections to Magistrate Judge Jeremiah J.
McCarthy’s Report and Recommendation, which
recommends suppressing evidence recovered from a
warrantless search of the Defendant’s home. For the
reasons stated below, the Court adopts the Report and
Recommendation in some respects and declines to
adopt the Report and Recommendation in other
respects. The Court therefore denies the Defendant’s
motion to suppress.
DISCUSSION
The Court assumes familiarity with the facts of
this case, which Judge McCarthy’s Report and
Recommendation sets forth in detail. In brief, the
Defendant began serving a five-year term of federal
supervised release in July 2016. Within two months
of his release, the Drug Enforcement Administration
(DEA) began receiving anonymous tips alleging that

11a
the Defendant was selling heroin and fentanyl from
his home. Each of the tips DEA received was
relatively vague, none contained any predictive
information, and neither the DEA nor the Defendant’s
Probation Officer attempted to verify any of the
information in the tips.
1 Based on the tips, several U.S. Probation Officers
and DEA agents searched the Defendant’s home and
found a digital scale, “multiple bags of compressed
powder,” and three “kilo presses.” 2
The first tip stated: “federal probation officer James Dyckman
to tap this phone number 917 957 [xxxx], if you want heroin off
the buffalo streets.” Ex. 1. James Dyckman is the Defendant’s
Probation Officer. Officer Dyckman testified that the phone
number in the tip was not the phone number the Defendant had
provided to the Probation Office.

1

The second tip stated: “Michael Elder 143 Edgewood tondowanda
ny [sic], this guy is dealing heroin to our neighborhood. I live on
this street, expensive cars in and out of this address, large boxes
being delivered stuffed with heroin. How many overdoses must
occur before my street is safe from a well-known fentanyl
dealer?” Ex. 3.
The third tip stated: “I live in this community. The government
pretends to care about people’s well-being. How many overdoses
need to occur before something is done? I guess I shouldn’t care
either.” Tr. 52:9-12.
And the fourth tip stated: “If you raid Michael Elder residence at
143 Edgewood, you’ll find drugs, heroin, Fentanyl underneath
the cabinets next to the stove.” Tr. 52:13-16.
According to one of the DEA agents who conducted the search,
a “kilo press” is “basically a hydraulic floor jack connected to a
collar that’s the shape of a small box.” Tr. 69:13-16. The user
“put[s] powder in” the jack, “put[s] the top on and jack[s] [the]
jack up [to] make . . . a block of drugs.” Tr. 69:16-18.
2

12a
The Court agrees with Judge McCarthy that the
anonymous tips did not, individually or collectively,
support a finding of reasonable suspicion. This is a
close question—for instance, one tip references the
name of the Defendant’s Probation Officer, suggesting
a familiarity with the Defendant and his activities.
However, none of the information contained in the tips
was verified and none of it was predictive. Moreover,
none of the tipper’s identities is known, and there is
therefore was no way of knowing whether four people
sent four tips, or if, instead, one person sent four tips.
And, finally, nothing in the Defendant’s background
or history of supervision suggested that he might,
upon release, become involved in drug trafficking. 3
Thus, either individually or collectively, these tips do
not amount to reasonable suspicion. 4
The Court disagrees, however, with Judge
McCarthy’s conclusion that the search needed to have
been supported by reasonable suspicion.
The
Probation Officer testified that he was only permitted
to search the Defendant’s house if he had reasonable
The Defendant’s underlying conviction was for bank robbery,
and he has no prior charges or convictions related to narcotics.
While on supervised release, the Defendant was employed, he did
not test positive for drugs, and, to the Probation Officer’s
knowledge, he had not violated any condition of his supervised
release. Finally, the Probation Officer had visited the
Defendant’s house on two or three occasions before the search at
issue, and the record does not suggest that the Probation Officer
found any contraband during those visits.
4 “That the allegation[s]” in the tips “turned out to be correct does
not suggest that the officers, prior to the [search], had a
reasonable basis for suspecting [the Defendant] of engaging in
unlawful conduct: The reasonableness of official suspicion must
be measured by what the officers knew before they conducted
their search.” Florida v. J.L., 529 U.S. 266, 271 (2000).
3

13a
suspicion to do so. That conclusion was incorrect. The
terms of the Defendant’s supervised release include a
search condition, but that search condition does not
require reasonable suspicion. Instead, the search
condition states, in its entirety, that “[t]he defendant
shall submit to a search of his person, property,
vehicle, place of residence or any other property under
his control and permit the confiscation of any evidence
or contraband discovered.” Docket No. 23-1 at 4.
Thus, the search condition in this case authorizes
suspicionless searches.
The law is not clear on whether the Fourth
Amendment permits a person on federal supervised
release to be subject to suspicionless searches. 5 In
United States v. Knights, the Supreme Court held
that, “[w]hen an officer has reasonable suspicion that
a probationer subject to a search condition is engaged
in criminal activity, there is enough likelihood that
criminal conduct is occurring that an intrusion on the
probationer’s significantly diminished privacy
interests is reasonable.” 534 U.S. 112, 121 (2001).
Knights, however, expressly reserved decision on the
question whether a search that is unsupported by
“any individualized suspicion” would satisfy the
Fourth Amendment. Id. at 120 n.6. Like Knights, the
Second Circuit has held that “[p]robationary
searches—whether
for
law
enforcement
or
probationary purposes—are acceptable . . . if based
While the search in this case was not supported by reasonable
suspicion, the search was not entirely without suspicion. The
anonymous tips suggested, at the very least, that the Defendant
was engaged in conduct that others either knew or believed was
criminal. However, the Government has justified the search
based largely on the terms of the Defendant’s supervised release,
which require no suspicion.
5

14a
upon reasonable suspicion (or potentially a lesser
standard).” United States v. Lifshitz, 369 F.3d 173,
181 (2d Cir. 2004). But the Second Circuit has not yet
clarified whether a search of a federal supervisee may
be based on a “lesser standard” than reasonable
suspicion. See United States v. Chirino, 483 F.3d 141,
150 (2d Cir. 2007) (McLaughlin, J., concurring)
(arguing that “something less than reasonable
suspicion may support a search of the dwelling of a
felon on probation,” and urging the Second Circuit to
resolve the question). See also United States v.
Washington, No. 12 Cr. 146(JPO), 2012 WL 5438909,
at *6 n.4 (S.D.N.Y. Nov. 7, 2012) (concluding that
search was supported by reasonable suspicion and, as
a result, declining to address “the open question
whether a lesser standard may be appropriate in the
supervised release context”). Thus, at present, there
appears to be no binding authority addressing
whether a federal probation officer may search a
supervisee’s home based on something less than
reasonable suspicion.
In a closely-related context, however, the Supreme
Court has provided guidance that helps resolve this
case. In Samson v. California, 547 U.S. 843 (2006),
the Court considered whether a California statute
permitting suspicionless searches of parolees was
consistent with the Fourth Amendment. 6
This
required the Court to assess “‘the totality of the
Samson was decided on the understanding that the California
statute did not permit “‘arbitrary, capricious or harassing’
searches.” Samson, 547 U.S. at 856. Although the search in this
case was not supported by reasonable suspicion, there is
absolutely no suggestion that it was arbitrary, capricious, or
harassing.
6

15a
circumstances’” surrounding the search “by assessing,
on the one hand, the degree to which [the search]
intrudes upon an individual’s privacy and, on the
other, the degree to which [the search] is needed for
the promotion of legitimate governmental interests.’”
Id. at 848 (quoting Knights, 534 U.S. at 118-19).
Parolees, the Court observed, “have fewer
expectations of privacy than probationers, because
parole is more akin to imprisonment than probation is
to imprisonment.” Id. at 850 (quoting Knights, 534
U.S. at 119).
After balancing that diminished
expectation of privacy against the state’s “substantial”
interest in supervising parolees, id. at 853, the Court
concluded that “the Fourth Amendment does not
prohibit a police officer from conducting a
suspicionless search of a parolee.” Id. at 857.
Samson is particularly relevant to this case
because of how the Supreme Court treated parole for
Fourth Amendment purposes. The Court observed
that, on the “‘continuum’ of state-imposed
punishments,” parole “is more akin to imprisonment”
than it is to probation. Id. at 850. Then—as is critical
here—the Supreme Court cited the Second Circuit’s
decision in United States v. Reyes, 283 F.3d 446, 461
(2d Cir. 2002), for the proposition that “federal
supervised release, . . . in contrast to probation, is
meted out in addition to, not in lieu of, incarceration.”
(quotation marks omitted).
Parole, the Court
observed, is similar: “‘The essence of parole is release
from prison, before the completion of sentence, on the
condition that the prisoner abide by certain rules
during the balance of the sentence.’” Samson, 547
U.S. at 850 (quoting Morrissey v. Brewer, 408 U.S.
471, 477 (1972)).

16a
Samson therefore appears to suggest that a federal
supervisee is, for Fourth Amendment purposes, little
different than a parolee. Supervised release and
parole are, in many ways, both an extension of prison.
“Like parole, supervised release is a term of
supervision following incarceration.” Reyes, 283 F.3d
at 458. But supervised release also “differs from
parole in an important respect: ‘unlike parole,
supervised release does not replace a part of a term of
incarceration, but instead is . . . given in addition to
any term of imprisonment imposed by a court.’” Id.
(quoting 1 Neil P. Cohen, The Law of Probation and
Parole § 5:11, at 5-22 (2d ed. 1999)) (ellipsis and
emphasis in Reyes). Thus, the “totality of the
circumstances pertaining” to a person’s “status” as a
federal supervisee demonstrates that a supervisee’s
expectations of privacy are not ones “that society
would recognize as legitimate.” Samson, 547 U.S. 851.
In particular, “[i]t is beyond doubt that [a
supervisee’s] actual expectation of privacy in the
environs of his home [is] necessarily and significantly
diminished because [he] [is] a convicted person
serving a court-imposed term of federal supervised
release that mandate[s] home visits ‘at any time’ from
his federal probation officer.” Reyes, 283 F.3d at 457. 7
The United States Sentencing Commission “recommend[s]”
that a sentencing court impose, among other conditions of
supervised release, the condition that the defendant “allow the
probation officer to visit the defendant at any time at his or her
home or elsewhere,” and that the defendant “permit the
probation officer to take any items prohibited by the conditions
of the defendant’s supervision that he or she observes in plain
view.” U.S.S.G. § 5B1.3(c)(6) (2016). See also U.S.S.G. §
5B1.3(c)(9) (2005) (recommending substantively identical
condition at time of Defendant’s sentencing); In the Matter of

7

17a
This limited expectation of privacy is even further
reduced where—as in this case—a defendant’s term of
supervised release includes, in addition to a homevisit condition, a condition permitting the Probation
Officer to search the defendant’s home for
contraband. 8 Taken together, this means that the
average federal supervisee has a “diminished
expectation of privacy that is inherent in the very
term ‘supervised release.’” Id. at 461 (emphasis in
original).
Balanced against a supervisee’s lowered
expectation of privacy is the Probation Officer’s
“responsibilit[y] . . . to ensure that a convicted person
under supervision does not again commit a crime.” Id.
at 459. Indeed, a Probation Officer is “required to
investigate the ‘conduct and condition’ of a supervisee
by, inter alia, undertaking ‘at any time’ a home visit
to determine whether the supervisee is violating the
terms of his supervised release, including the
condition that he not commit any further crimes.” Id.
at 460 (citing 18 U.S.C. § 3603(2)) (emphasis added).
And a Probation Officer has a “duty . . . to investigate
whether a [supervisee] is violating the conditions of
his” supervised release, Reyes, 283 F.3d at 459, one of
which is the mandatory condition that a supervisee
“not unlawfully possess a controlled substance.” 18
U.S.C. § 3583(d). A Probation Officer, in other words,
has an affirmative responsibility to ensure that a
Revised Standard Conditions of Probation and Supervised
Release (W.D.N.Y. Apr. 4, 2017) (on file with Clerk of Court)
(establishing home-visit condition as one of the “standard
conditions of probation and supervised release in the Western
District of New York”).
8 The Court only considers the privacy expectations of a
supervisee whose supervised release includes a search condition.

18a
person under his supervision is complying with both
the law and the conditions of supervised release. See
also 18 U.S.C. § 3603(3) (“A probation officer shall use
all suitable methods, not inconsistent with the
conditions specified by the court, to aid a probationer
or a person on supervised release who is under this
supervision, and to bring about improvements in his
conduct and conditions.”)
To effectively fulfill this responsibility, a Probation
Officer needs, in the vast majority of cases, the ability
to conduct searches like the one in this case. If a
search “is to be effective and serve as a credible
deterrent, unannounced . . . inspections are essential,”
and if a Probation Officer must wait until he has
reasonable suspicion to perform a search, his ability
to do his job “could easily [be] frustrate[d].” United
States v. Biswell, 406 U.S. 311, 316 (1972) (addressing
Fourth Amendment implications of regulatory
searches). This is because “[i]mposing a reasonable
suspicion requirement would give” supervisees
“greater opportunity to anticipate searches and
conceal criminality.” Samson, 547 U.S. at 854. After
all, like parolees, supervisees are “‘more likely to
commit future criminal offenses.’” Samson, 547 U.S.
at 853 (quoting Pa. Bd. of Probation and Parole v.
Scott, 534 U.S. 357, 365 (1998). In other words, it is
important to not lose sight of the fact that, if a
Probation Officer is supervising someone whose
sentence includes a search condition, the Probation
Officer is likely not supervising a petty criminal. This
reality must be factored into the Court’s assessment
of a Probation Officer’s interest in conducting
suspicionless searches.

19a
Thus, although the search in this case was not
supported by reasonable suspicion, the Court
concludes that the Probation Officer needed no
suspicion to conduct the search. This conclusion
“follows from Samson,” United States v. Jackson, 866
F.3d 982, 985 (8th Cir. 2017), and Reyes: Samson
approved suspicionless searches of parolees, and
Reyes recognized that federal supervision is
functionally no different than parole. See also id. at
985 (“[The Eighth Circuit] ha[s] said that supervised
release is a more severe punishment than parole and
probation, and involves the most circumscribed
expectation of privacy.”) (quotation marks omitted).
Several courts of appeals have relied on Samson to
reach this or a similar conclusion. See id. at 984-85
(relying on Samson to allow search of supervisee’s cell
phone without regard to whether reasonable suspicion
existed). Cf. United States v. Taylor, 482 F.3d 315, 319
n.2 (5th Cir. 2007) (in case involving state supervisee,
noting that Samson may have “eliminated” the
“reasonableness requirement” in a supervised release
search). 9 The Court therefore concludes that the
The Court recognizes that Reyes was limited to home visits—”a
far less invasive form of supervision than a search.” Reyes, 283
F.3d at 462. Specifically, Reyes held that, “[b]ecause home visits
‘at any time’ are conducted pursuant to a court-imposed condition
of federal supervised release of which the supervisee is aware,
and because a home visit is far less intrusive than a probation
search, probation officers conducting a home visit are not subject
to the reasonable suspicion standard applicable to probation
searches under Knights.” Id. at 462 (all emphasis in original).
This case is, of course, different than Reyes: Although the
Defendant is subject to the same home-visit condition that was
imposed in Reyes, the Government has not attempted to justify
the search on that basis. Samson, however—which was decided

9

20a
search in this case complied with the Fourth
Amendment.
In addition to considering whether the search in
this case complied with the Fourth Amendment,
Judge McCarthy also concluded (1) that the
Defendant’s “stalking horse” argument is “‘not a valid
defense in this Circuit,’” Docket No. 29 at 8 (quoting
Reyes, 283 F.3d at 463); and (2) that the public-safety
exception to Miranda permitted a DEA agent to ask
the Defendant, after recovering suspected drugs from
the Defendant’s kitchen, whether “anything in
[suspected drugs] [is] going to hurt [the agent]?”
The Court adopts both of these recommendations,
and it would do so regardless of the standard of
review. 10
As Judge McCarthy observed, Reyes
foreclosed the “stalking horse” theory in the Second
Circuit.
In addition, the agent’s un-Mirandized
question to the Defendant was entirely justified given
(1) that the Defendant’s home was being searched, in
part, because DEA agents believed it contained
fentanyl; (2) the agent’s descriptions of the dangers
posed by merely coming into contact with fentanyl, Tr.
64:1 – 65:22; and (3) the fact that the agent asked a
focused question, about evidence he had just
recovered, that was designed to elicit a simple answer,
rather than incriminating evidence. See generally
after Reyes—seems to eliminate Reyes’ distinction, for Fourth
Amendment purposes, between home visits and searches.
10
The Defendant does not object to either of these
recommendations. A district court “may adopt those portions of
a report and recommendation to which no objections have been
made, as long as no clear error is apparent from the face of the
record.” United States v. Preston, 635 F. Supp. 2d 267, 269
(W.D.N.Y. 2009).

21a
New York v. Quarles, 467 U.S. 649 (1984); United
States v. Reyes, 353 F.3d 148 (2d Cir. 2003).
CONCLUSION
For the reasons stated above, the Court adopts
Judge McCarthy’s Report and Recommendation in
part and declines to adopt the Report and
Recommendation in part. The Defendant’s motion to
suppress (Docket No. 6) is therefore denied in its
entirety. The parties shall appear on February 15,
2018 at 9:00 a.m. for a meeting to set a date for a trial
or plea.
SO ORDERED.
Dated: February 13, 2018
Buffalo, New York
s/Richard J. Arcara
HONORABLE RICHARD J. ARCARA
UNITED STATES DISTRICT JUDGE

22a
APPENDIX D
Case No. 1:17-cr-00005-RJA-JJM
UNPUBLISHED
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF NEW YORK
UNITED STATES OF AMERICA,
ISSUED:
October 31, 2017

v.
MICHAEL ELDER,
Defendant.

REPORT AND RECOMMENDATION
Defendant Michael Elder is charged in a threecount Indictment 1 with possession of cocaine base and
fentanyl with intent to distribute in violation of 21
U.S.C. §841(a)(1), and maintaining a drug-involved
premises in violation of 21 U.S.C. §856(a)(1).
Indictment [1]. 2 These charges arise from a November
3, 2016 search of his residence at 143 Edgewood
Avenue in Tonawanda, New York, conducted while
defendant was on supervised release.
Before the court is defendant’s motion to suppress
evidence and statements arising from that search
(defendant’s Memorandum of Law [6-5], Point III),
which has been referred to me by District Judge
1
2

The Indictment [1] also contains a Forfeiture Allegation.
Bracketed references are to the CM/ECF docket entries.

23a
Richard J. Arcara for initial consideration [3]. An
evidentiary hearing was conducted on August 10,
2017, at which United States Probation Officer (“PO”)
James Dyckman and DEA Special Agent (“SA”) David
Turner testified. After reviewing the parties’
submissions on this motion [6, 7, 8, 26, 27, 28], as well
as the hearing transcript [24] and exhibits [23], I
recommend that the motion be granted. 3
BACKGROUND
On July 7, 2016, defendant began his supervised
release arising from a conviction for bank robbery. See
Gov. Ex. 1 [23-1], pp. 1-2 of 6; hearing transcript [24],
pp. 7, 20. He was supervised by PO Dyckman of the
United States Probation and Pretrial Services Office.
Hearing transcript [24], p. 6. As a special condition of
his supervised release, defendant was required to
“submit to a search of his person, property, vehicle,
place of residence or any other property under his
control and permit confiscation of any evidence or
contraband discovered.” Gov. Ex. 1 [23-1], p. 4 of 6. PO
Dyckman testified that the search condition required
reasonable suspicion. Hearing transcript [24], pp. 20,
35.
Prior to the search, PO Dyckman had been to
defendant’s residence on two to three occasions and
was unaware of any violations by defendant of the
terms of his supervised release. Id., pp. 34-36.
Defendant was employed, had no prior drug-related
charges or convictions, and had not tested positive for
drugs. Id., pp. 35-37.
Although defendant’s pretrial motion [6] sought other relief,
defendant’s counsel acknowledged that suppression was the only
issue remaining in dispute.

3

24a
Toward the end of October or in early November
2016, PO Dyckman received an e-mail from the DEA
that it had received four anonymous tips “from the
community about [defendant] potentially involved in
drug trafficking activities”. Id., pp. 22-23, 37-38, 50.
The tips were attached to the DEA’s e-mail. Id., pp.
27, 38. Two of the tips received online were entered
into evidence. The first, made on August 31, 2016 to
the DEA tip line, stated: “federal probation officer
James Dyckman to tap this phone number 917 957
[****], if you want heroin off the buffalo streets”. Gov.
Ex. 2 [23-2]. The second, made on September 18, 2016
stated: “Michael Elder 143 Edgewood tondowanda
[sic] ny, this guy is dealing heroin to our
neighborhood. I live on this street, expensive cars in
and out of this address, large boxes being delivered
stuffed with heroin. How many overdoses must occur
before my street is safe from a well-known fentanyl
dealer?” Gov. Ex. 3 [23-3]. Although the tip as
transmitted to PO Dyckman was not entered into
evidence, SA Turner testified that one of the tips
stated, “If you raid [defendant’s] residence at 143
Edgewood, you’ll find drugs, heroin, Fentanyl
underneath the cabinets next to the stove”. Hearing
transcript [24], pp. 52, 57-58, 67.
PO Dyckman testified that the tips were the sole
reason he initiated the search. Id., pp. 41, 43.
However, he acknowledged that he did not determine
who sent the e-mailed tips, did not verify whether the
tips came from more than one person, did not take
measures to determine the veracity and credibility of
the anonymous tips, and did not verify whether the
telephone number identified in the August 31, 2016
tip was assigned or attributed to defendant. Id., pp.

25a
39-41. He conceded that the tips could have been
nothing more than a prank, but stated that a
prankster tip could justify a search of the premises.
Id., pp. 43-44. He denied that the search was
conducted at the behest of the DEA. Id., p. 41. He
testified that the DEA was invited along on the search
because the Probation Office was “not equipped to
handle dangerous substances that potentially can
contain heroin or Fentanyl.” Id. p. 43.
On November 3, 2016, POs Dyckman and Gavin
Lorenz knocked on the door of defendant’s residence.
Id., p. 29. When defendant answered the door, he was
handcuffed and taken to the dining room, where he
remained during the search. Id., pp. 29-30, 31, 44.
Defendant was informed what was occurring, but he
did not object or make any statements at that time.
Id., p. 31. Four other POs entered and cleared
defendant’s residence. Id., pp. 31, 42. Once the
residence was secured, three DEA members, including
SA Turner, followed to assist with the search. Id., pp.
31, 42, 60-62.
SA Turner testified that the DEA has special
protocols for handling fentanyl, which can be difficult
to recognize, because of the harm presented to officers
in the field from that drug. Id., pp. 64-67. After
substances were located during the search, for
purposes of officer safety arising from the “seriousness
of Fentanyl”, Agent Turner asked defendant, “Is there
anything in there that’s going to hurt me”?. Id., pp. 68,
79. In response, defendant said “nothing’s going to
hurt you” Id. When SA Turner continued, defendant
requested a lawyer, and the questioning ceased. Id.,
pp. 68-69.

26a
ANALYSIS
A. Motion to Suppress Physical Evidence
1. Was the Search Justified by Reasonable
Suspicion?
Defendant argues, and the government concedes,
that the search condition permitted the Probation
Office to search his residence upon reasonable
suspicion. Defendant’s Post-Hearing Memorandum of
Law [26], p. 3; government’s Post-Hearing
Memorandum of Law [27], p. 2 (citing PO Dyckman’s
testimony [24], p. 20). The government bears the
burden of establishing, by a preponderance of the
evidence, that reasonable suspicion existed for the
search. See United States v. Goines, 604 F.Supp.2d
533, 539 (E.D.N.Y. 2009); United States v. Harris,
2013 WL 6728136, *4 (S.D.N.Y. 2013). Based upon PO
Dyckman’s testimony that the search was prompted
solely by the anonymous tips ([24], pp. 41, 43),
suppression turns on “whether such anonymous tips
can provide the ‘reasonable suspicion’ required to
validate the search of the [d]efendant’s residence”.
Defendant’s Post-Hearing Memorandum of Law [26],
p. 3.
“Reasonable suspicion is a less demanding
standard than probable cause not only in the sense
that reasonable suspicion can be established with
information that is different in quantity or content
than that required to establish probable cause, but
also in the sense that reasonable suspicion can arise
from information that is less reliable than that
required to show probable cause.” Alabama v. White,
496 U.S. 325, 330 (1990). Nevertheless, “[r]easonable
suspicion must be based on specific and articulable
facts and not on an inchoate suspicion or mere hunch.”

27a
United States v. Bailey, 743 F.3d 322, 346-47 (2d Cir
2014). Like probable cause, reasonable suspicion is
“dependent upon both the content of information
possessed by police and its degree of reliability. Both
factors - quantity and quality - are considered in the
totality of the circumstances”. White, 496 U.S. at 330.
Thus, “if a tip has a relatively low degree of reliability,
more information will be required to establish the
requisite quantum of suspicion than would be
required if the tip were more reliable.” Id.
“Courts look to several factors to determine the
reliability of an informant’s tip. First, a known
informant’s tip is thought to be more reliable than an
anonymous informant’s tip. Second, an informant
with a proven track record of reliability is considered
more reliable than an unproven informant. Third, the
informant’s tip is considered more reliable if the
informant reveals the basis of knowledge of the tip how the informant came to know the information.
Finally, a tip that provides detailed predictive
information about future events that is corroborated
by police observation may be considered reliable, even
if the tip comes from an anonymous source.” United
States v. Rowland, 464 F.3d 899, 907–08 (9th Cir.
2006) (citations omitted). “Even a tip from a
completely anonymous informant - though it will
seldom demonstrate basis of knowledge and the
veracity of an anonymous informant is largely
unknowable - can form the basis of reasonable
suspicion . . . if it is sufficiently corroborated.” United
States v. Elmore, 482 F.3d 172, 179 (2d Cir. 2007).
Here, none of the indicia of reliability were
present. The tipsters were anonymous and did not
reveal the basis of their knowledge. PO Dyckman did

28a
not attempt to corroborate the information or to
otherwise vet the reliability of the tips. While there
were multiple tips, “[t]his is not an instance where
two, independent but anonymous sources corroborate
each other to supply reasonable suspicion”. United
States v. Parker, 2007 WL 4373448, *8 (W.D.N.Y.
2007). Indeed, PO Dyckman never verified whether
the tips came from one individual or separate
individuals. Hearing transcript [24], p. 34.
Although the government elected to put only two
of the four tips into evidence, those two do little to
support its position. For example, the August 31, 2016
tip did not mention defendant and no evidence was
introduced linking defendant to the telephone number
it contained. The September 18, 2016 tip is equally
unreliable. As defendant notes, “it purports to be from
a neighbor who can’t even properly spell the
municipality in which he resides and who apparently
possesses x-ray vision utilized to see the contents of
sealed
boxes”.
Defendant’s
Post-Hearing
Memorandum of Law [26], p. 5. Given the arguments
raised by defendant and the lack of any rebuttal by
the government, I conclude that the government failed
to meet its burden of proof of establishing, by a
preponderance of the evidence, that reasonable
suspicion existed for the search. Therefore, I
recommend that defendant’s motion to suppress
evidence be granted. 4
“The fact that a Fourth Amendment violation occurred i.e., that
a search or arrest was unreasonable does not necessarily mean
that the exclusionary rule applies.” Herring v. United States, 555
U.S. 135, 140 (2009); United States v. Julius, 610 F.3d 60, 66 (2d
Cir. 2010) (“application of the exclusionary rule is not a matter of
right upon a finding that an improper search has taken place”).
“To trigger the exclusionary rule, police conduct must be

4

29a
Defendant also argues that his statements must be
suppressed as fruit of the poisonous tree. Defendant’s
Post-Hearing Memorandum of Law [26], p. 7. The
fruit of the poisonous tree doctrine requires the
exclusion of illegally obtained evidence, unless it was
derived “by means sufficiently distinguishable to be
purged of the primary taint”. Wong Sun v. United
States, 371 U.S. 471, 488 (1963). “The Government
bears the burden of proving a break in the causal
chain.” United States v. Murphy, 778 F.Supp.2d 237,
255 (N.D.N.Y.2011), aff’d, 703 F.3d 182 (2d Cir. 2012).
See United States v. Guzman, 724 F.Supp.2d 434, 444
(S.D.N.Y.2010) (“The burden of proving that the
statements were sufficiently attenuated to remove the
taint from the unlawful search is on the government”).
Since the government makes no effort to establish
such a break, I recommend that defendant’s
statements be suppressed as fruit of the poisonous
tree. Defendant’s Post-Hearing Memorandum of Law
[26], p. 7.
However, in the event that my recommendations
are not adopted, I have addressed the other grounds
for suppression raised by defendant.

sufficiently deliberate that exclusion can meaningfully deter it,
and sufficiently culpable that such deterrence is worth the price
paid by the justice system . . . . [T]he exclusionary rule serves to
deter deliberate, reckless, or grossly negligent conduct.” Id. at
144. While it is not evident whether Herring applies to these
circumstances, I need not resolve that issue. It is the
government’s “burden [to prove] that the exclusionary rule is not
‘a proper remedy for the violation’ of the Fourth Amendment”
(United States v. Anderson, 2012 WL 3535771, *6 (W.D.N.Y.),
adopted 2012 WL 3528971 (W.D.N.Y.2012) (citing Julius, 610
F.3d at 66), and it has made no attempt to satisfy that burden.

30a
2. Was the Probation Office’s Search Authority
Used
to
Circumvent
the
Warrant
Requirements Applicable to the DEA?
Alternatively, defendant argues that the search
was “initiated by the DEA by virtue of their receipt of
the tips . . . and that agency’s attempt to circumvent
any warrant requirements, by utilizing [d]efendant’s
probation officer as a back door method of gaining
entry into the premises”. Defendant’s Post-Hearing
Memorandum of Law [26], p. 6. Such arguments have
been referred to as the “stalking horse” theory,
whereby “a probation officer may not use his authority
to conduct a home visit to help law enforcement
officers evade the Fourth Amendment’s usual warrant
and probable cause requirements for police searches
and seizures.” United States v. Reyes, 283 F.3d 446,
463 (2d Cir. 2002).
Although the government offers no opposing
legally authority, defendant’s argument, which relies
solely on non-controlling authority from outside the
Second Circuit, fails as a matter of law. See
Defendant’s Post-Hearing Memorandum of Law [26],
p. 6. This Circuit has recognized that since “the duties
and objectives of probation/parole officers and other
law enforcement officials, although distinct, may
frequently be intertwined and responsibly require
coordinated efforts . . . . it is difficult to imagine a
situation in which a probation/parole officer who
entered a residence with other law enforcement
officials based on information about a supervisee’s
illegal activities would not be pursuing legitimate
supervision objectives.” United States v. Newton, 369
F.3d 659, 667 (2d Cir. 2004).

31a
Therefore, the stalking horse “doctrine is not a
valid defense in this Circuit”, and I would recommend
denying suppression on that ground. Reyes, 283 F.3d
at 463. See also United States v. Washington, 2012 WL
5438909, *7 (S.D.N.Y. 2012) (“it is crystal clear that
the stalking horse theory is not a valid defense to
warrantless searches of . . . individuals on supervised
release in this Circuit”); United States v. Chandler,
164 F. Supp. 3d 368, 381 (E.D.N.Y. 2016).
B. Motion for Suppression of Statements
Defendant also seeks suppression of his
statements on the grounds that he was questioned
without being Mirandized. Defendant’s Post-Hearing
Memorandum of Law [26], p. 7. The government
concedes that defendant was not Mirandized, but
argues that “the public safety exception authorized
the questioning of the defendant with respect to the
suspected fentanyl and its dangers”. Government’s
Post-Hearing Memorandum of Law [27], p. 6 (citing
New York v. Quarles, 467 U.S. 649 (1984)).
The “public safety” doctrine is “a narrow
exception to the Miranda rule”, Quarles, 467 U.S. 658,
which applies only “so long as the questioning relates
to an objectively reasonable need to protect the police
or the public from any immediate danger.” United
States v. Newton, 369 F.3d 659, 677 (2d Cir. 2004). In
its post-hearing response, defendant makes no
attempt to demonstrate why this doctrine would not
apply to SA Turner’s brief questioning of defendant
concerning the possible dangers posed by the
recovered substances. Therefore, I would not

32a
recommend that
defendant’s
suppressed on this ground.

statements

be

CONCLUSION
For these reasons, defendant’ motion for
suppression (defendant’s Memorandum of Law [6-5],
Point III) is granted. Unless otherwise ordered by
Judge Arcara, any objections to this Report and
Recommendation must be filed with the clerk of this
court by November 14, 2017. Any requests for
extension of this deadline must be made to Judge
Arcara. A party who “fails to object timely . . . waives
any right to further judicial review of [this] decision”.
Wesolek v. Canadair Ltd., 838 F. 2d 55, 58 (2d Cir.
1988); Thomas v. Arn, 474 U.S. 140, 155 (1985).
Moreover, the district judge will ordinarily refuse
to consider de novo arguments, case law and/or
evidentiary material which could have been, but were
not, presented to the magistrate judge in the first
instance. Patterson-Leitch Co. v. Massachusetts
Municipal Wholesale Electric Co., 840 F. 2d 985, 99091 (1st Cir. 1988).
The parties are reminded that, pursuant to Rule
59(c)(2) of this Court’s Local Rules of Criminal
Procedure, “[w]ritten objections . . . shall specifically
identify the portions of the proposed findings and
recommendations to which objection is made and the
basis for each objection, and shall be supported by
legal authority”, and pursuant to Local Rule 59(c)(3),
the objections must include “a written statement
either certifying that the objections do not raise new
legal/factual arguments, or identifying the new
arguments and explaining why they were not raised
to the Magistrate Judge”. Failure to comply with these

33a
provisions may result in the district judge’s refusal to
consider the objection.
Dated: October 31, 2017
/s/ Jeremiah J. McCarthy
JEREMIAH J. MCCARTHY
United States Magistrate Judge

